Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Payment for Procedures in Outpatient
Departments and Ambulatory Surgical
              Centers




                    JANET REHNQUIST
                     Inspector General

                      JANUARY 2003
                      OEI-05-00-00340
                    OFFICE OF INSPECTOR GENERAL


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                        EXECUTIVE SUMMARY



OBJECTIVE

      To determine to what extent Medicare payments for the same procedure codes continue to
      vary between hospital outpatient departments and ambulatory surgical centers and to assess the
      effect of this variance on the Medicare program.



BACKGROUND

      The Medicare program most frequently pays for services provided to beneficiaries in the
      following ambulatory settings: hospital outpatient departments (OPDs), ambulatory surgical
      centers (ASCs) and physician offices. Different regulations and statutes govern the methods for
      calculating reimbursement for each ambulatory setting.

      The Office of Inspector General (OIG) issued reports in 1991 documenting that Medicare paid
      more for services in OPDs than for the same procedure codes provided in ASCs. In response
      to OIG recommendations, the Centers for Medicare & Medicaid Services (CMS) concluded
      that establishing uniform rates would guarantee that payment rates reflect only those costs
      necessary to deliver care regardless of the setting.

      We selected 453 procedure codes that CMS listed as ASC-approved procedures, which
      represent approximately 95 percent of all ASC-approved services in all settings in 1999. We
      compared the 2001 facility expense for 424 different procedure codes.



FINDINGS

Variation between ASC and OPD rates continues and results in an estimated $1.1
billion in additional program payments

      Despite attempts to bring OPD and ASC payments more in line, variation between these rates
      continues. In 66 percent of the procedure codes examined, outpatient department rates are
      higher than ambulatory surgical center rates. The median difference was $282.33. For the
      remaining 145 procedure codes, Medicare reimbursed ASCs more. As a result of paying
      higher rates, Medicare paid an estimated $1.1 billion more for services provided in settings with
      higher reimbursement. Not only do the rates vary, but there is


     Payment Methodologies                        i                                        OEI-05-00-00340
      concern that the rates themselves do not reflect accurate costs for performing the procedures.

Failure to remove certain procedure codes from the ASC list of covered
procedures resulted in an estimated $8 to $14 million in additional program
payments

      Currently, CMS regulations require that the ASC list of covered procedures not include
      procedures that are commonly performed or that may be safely performed in physicians’
      offices. Contrary to regulations, CMS has failed to remove certain procedure codes from the
      list of ASC-covered procedures. Using CMS’s established criteria, 72 procedure codes
      should have been removed from the ASC-covered services list. As a result of not removing
      these procedure codes, Medicare spent approximately $8 to $14 million more for services
      performed in ASCs as opposed to OPDs or physician offices, respectively.



RECOMMENDATIONS

      We believe that Congress intended Medicare to be a prudent purchaser of services and only to
      pay for those costs that are necessary for the efficient delivery of needed health services. Our
      analysis of payment systems shows that reimbursement disparities result in an estimated $1.1
      billion in additional Medicare program payments. Furthermore, failure to remove certain
      procedure codes from the list of ASC-approved procedures resulted in an estimated $8 to $14
      million in additional Medicare program payments.

      We reiterate previous OIG recommendations, with which CMS concurred, that there should be
      greater parity of payments for services performed in an outpatient setting and those performed
      in ASCs. These recommendations are consistent with the Medicare Payment Advisory
      Commission’s position that all else being equal, Medicare payment should be based on the
      service, and not the setting. To safeguard the Medicare program from excessive payments, we
      recommend that CMS:

      •	       seek authority to set rates that are consistent across sites and reflect only the costs
               necessary for the efficient delivery of health services,
      •        conduct and use timely ASC-survey data to reevaluate ASC-payment rates, and
      •	       remove the procedure codes that meet its criteria for removal from the ASC list of
               covered procedures.




     Payment Methodologies                          ii                                         OEI-05-00-00340
AGENCY COMMENTS

   We received comments from the Centers for Medicare & Medicaid Services. The CMS
   neither concurred nor non-concurred with our recommendations. The complete text of CMS’s
   comments can be found in Appendix E.

   The CMS commented that it would be valuable if we included an explicit acknowledgment that
   the three payment systems (outpatient prospective payment system, ASC fee schedule, and
   physician fee schedule) arise from different sections of the statute. We recognize that different
   statutory authorities mandate how CMS reimburses OPDs, ASCs, and physicians. Our
   recommendation recognizes that CMS needs additional authority because the payment systems
   have evolved over time from different laws enacted by Congress. We continue to urge CMS to
   seek the authority to set rates that are consistent across sites and reflect only the costs
   necessary for the efficient delivery of health services.

   The CMS stated that they have not conducted ASC surveys in some time due to competing
   priorities. They also note that the endeavor is quite difficult and poses a significant burden on
   ASCs. The CMS stated that it is now considering how best to proceed. We recognize the
   difficulty in developing and conducting a survey of costs in ASCs. However, we also recognize
   that operating a program where 2001 Medicare reimbursement was $1.6 billion, based on data
   that is more than 15 years old, does little to manage appropriately the ASC-payment system.
   We urge CMS to conduct and use timely ASC-survey data to reevaluate ASC-payment rates.

   In addition, CMS agrees that some procedures should be removed from the ASC-approved
   procedures list. The CMS states that they expect to complete the final rule regarding addition
   and deletions to the list of ASC-covered procedures. We understand that CMS is currently
   planning to issue parts of the June 1998 proposed regulations dealing with additions and
   deletions to the list of covered services. Our review of the draft final regulation circulating
   within the Department reveals that only 6 of the 72 procedure codes that we recommended are
   scheduled for deletion. Consequently, procedure codes meeting CMS’s criteria for removal
   from the ASC-covered procedure list will continue to be reimbursed as ASC-covered
   procedures resulting in higher program payments.




   Payment Methodologies                      iii                                       OEI-05-00-00340
                           TABLE                       OF              CONTENTS

                                                                                                                     PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS

          Variation between ASC and OPD rates continues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Failure to remove ASC-approved procedures leads to additional costs . . . . . . . . . . . . . . . . . 9


CONCLUSION AND RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11




APPENDICES

          A:        Procedure code rates for OPDs and ASCs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          B:        Number of codes by percent differences . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


          C:        Analysis by BETOS classification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


          D:        Procedure codes identified for removal from ASC list . . . . . . . . . . . . . . . . . . . . . . . 21


          E:        Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24




ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27





         Payment Methodologies                                    iv                                                    OEI-05-00-00340
                      I N T R O D U C T I O N


OBJECTIVE

      To determine to what extent Medicare payments for the same procedure codes continue to
      vary between hospital outpatient departments and ambulatory surgical centers and to assess the
      effect of this variance on the Medicare program.



BACKGROUND

      The Medicare program covers hospital outpatient department (OPD) services, ambulatory
      surgical center (ASC) services and physician office services under the Medicare Supplementary
      Medical Insurance Program. How Medicare reimburses for services in these settings varies
      and has evolved over time.

Office of Inspector General Work

      In the early 1990s, the Office of Inspector General (OIG) began examining how Medicare
      payments for services in ASCs and OPDs compared. In February and June 1991, OIG
      released two reports, which documented that Medicare paid more for services in OPDs than
      for the same services provided in ASCs.

      In the February 1991 report, OIG examined payment for surgical services performed in OPDs
      as compared with payment for similar services paid in ASCs. The services examined were
      furnished in calendar year (CY) 1988. The study found that if Medicare had limited its
      reimbursement for these services to the ASC rates, OPD payments could have been reduced
      by $89 million.1

      In the June 1991 report, OIG examined three high-volume procedures. They examined
      services provided in the first quarter of CY 1988 from the 10 states with the highest number of
      ASCs. The analysis included surgeons’ fees, facility fees, preoperative and postoperative office
      visits and intraocular lens fees, when appropriate. The study found that Medicare payments to
      OPDs exceeded payments to ASCs by 26 to 74 percent, depending on the procedure.2




      1
       A-14-89-00221, Medicare Reimbursement for Hospital Outpatient Department Services, February 1991

      2
       OEI-09-88-01003, Reimbursement for Outpatient Facility Services, June 1991
      Payment Methodologies                              1                                                OEI-05-00-00340
       Both reports made similar recommendations that directed the Centers for Medicare &
       Medicaid Services (CMS) to seek parity in the rates paid to OPDs and ASCs. For the fiscal
       year 1992 budget, the President’s budget request proposed that prospective rates for OPDs
       and ASCs be set at the lower of the OPD rate or the ASC rate. More recently, CMS stated
       that “establishing uniform rates will guarantee that payment rates reflect only the costs necessary
       to efficiently deliver a Medicare service regardless of service setting.”3 To achieve this result,
       CMS planned to examine the differences across sites to develop recommendations for
       legislative change. The CMS has contracted with an outside organization to perform this
       analysis.

Medicare Reimbursement Policy

       The Medicare program most frequently pays for services provided to beneficiaries in the
       following ambulatory settings: hospital OPDs, ASCs and physician offices. In 2001, Medicare
       reimbursement for outpatient services and ASC services was $17.7 billion and $1.6 billion,
       respectively. A number of factors have the potential to influence where a patient receives their
       care, including the patient’s medical diagnosis, the availability of different settings, ownership
       interests, a physician’s admitting privileges, and payment.

       Except the physician’s office, two claims are submitted when a service is provided in an
       ambulatory setting. One claim represents the physician’s service in providing the procedure,
       and the other claim represents the services provided by the facility for the provision of the
       procedure. When a procedure is provided in a physician’s office, the physician submits a single
       claim that includes both professional and facility services.

       Hospital Outpatient Departments. Medicare historically reimbursed hospital OPDs for
       services using a facility fee, based on the lesser of costs or charges. For ASC-covered
       procedures, Medicare reimbursed hospitals using either the lesser of costs or charges, or a
       blend of the hospital’s costs or charges and the ASC payment rate. The intent of the blended
       rate was to bring OPD rates more in line with ASC rates. In 1991, Congress set the blended
       rate to 58 percent of the lower of the hospital’s costs or charges and 42 percent of the ASC
       rate.

       Hospitals were required to file annual cost reports, which included all overhead and operating
       costs associated with operating the hospital. The CMS used these reports to reconcile the
       hospitals’ actual service costs with the interim payments CMS made to hospitals throughout the
       year.

       In the Balanced Budget Act of 1997, Congress required that CMS implement an outpatient
       prospective payment system (PPS). Congress required that CMS use 1996




       3
        Review of the Health Care Financing Administration’s Development of Medicare’s
Prospective Payment System for Hospital Outpatient Department Services (A-14-98-00400)
      Payment Methodologies                  2                                   OEI-05-00-00340
claims data along with the most recent available cost report to determine the outpatient PPS.

In August 2000, CMS implemented a PPS for hospital outpatient services. The new PPS for
outpatient procedures classifies services into a number of payment groups based on time, type
of service, organ system involved, and the cost of performing the service. For each group,
CMS assigned a payment weight based on the median cost (operating and capital) of the
services included in that group. To determine the median cost, CMS used settled but not
audited cost reports.

The payment that a hospital receives for a service is the product of this payment weight, a
dollar-based conversion factor, and a geographic adjustment factor to account for area labor
cost differences. Currently, CMS bases the payment weight on outpatient claims that hospitals
filed under the previous cost-based system. In 2003, the payment weight will be based on the
first year of outpatient PPS claims history.

Ambulatory Surgical Centers. In 1980, recognizing that some surgical procedures provided
on an inpatient basis could be safely performed in less intensive and less costly settings, the
Medicare program began covering services provided in ASCs. The ASCs operate exclusively
for the purpose of providing surgical services to patients not requiring hospitalization. A facility
must have an agreement with CMS to participate as an ASC in Medicare.

There are approximately 2,500 Medicare-approved procedures that Medicare can reimburse
when performed in an ASC. This list includes those procedures that can be performed safely
and less costly in an ASC than in an inpatient setting. In addition, CMS regulations require that
the ASC list of covered procedures not include procedures that are commonly performed or
that may be safely performed in physicians’ offices. This prohibition was intended to
discourage the shift of services from physician offices to ASCs.

Congress required that the fee paid to ASCs equal 80 percent of the standard overhead
amount established by the Secretary based on an estimate of a fair fee. The fair fee takes into
account costs incurred by ASCs in providing services as determined by a survey of the actual
audited costs. Congress required that CMS conduct these surveys every five years.

The CMS assigns each procedure to one of eight payment groups. Currently, reimbursement
for each group is calculated from cost and charge data obtained from 295 ASCs in 1986. The
same adjusted amount applies to all procedures designated within a single payment group.

In June 1998, CMS issued a proposed notice in the Federal Register, which would have
implemented a PPS for ASCs. To date, CMS has not issued the proposed notice in final.




Payment Methodologies                        3                                          OEI-05-00-00340
      The Benefits Improvement and Protection Act (BIPA) of 2000 delayed implementation of an
      ASC prospective payment system before January 1, 2002. The BIPA also required that CMS
      use 1999 or later cost survey data in the ASC prospective payment system. The CMS is
      continuing to work with the ASC industry to develop payment groupings that address the needs
      of both industry and the Medicare program.

      Physician Office. Beginning in 1992, reimbursement for physician office procedures uses a
      fee schedule based on three factors: the physician’s work in providing services, their
      malpractice expense, and a practice expense. A relative value unit (RVU) was assigned to
      each factor depending upon the service being provided. The sum of these RVUs is then
      multiplied by a geographic factor and a conversion factor to maintain budget neutrality (changes
      resulting in increases in one RVU were balanced by decreases in another RVU).



METHODOLOGY

Identification of Procedure Codes for Analysis

      For our analysis, we selected 453 procedure codes that CMS listed as ASC-approved
      procedures in 1999. These procedure codes were used a minimum of 1,000 times in any one
      of the following three settings: physician office, hospital OPDs, and ASCs. These procedure
      codes represent 95 percent of the volume of all ASC-approved services in all settings in 1999.
      Because of the deletion of procedure codes, the number of procedure codes examined in 2001
      was 424. (See Appendix A for the list of procedure codes along with OPD and ASC rates.)

Practice or Facility Expense Comparison

      Medicare payments for ambulatory care generally consist of two separate parts: a payment to
      the facility for furnished services and supplies, and a payment to the practitioner for related
      professional services. Payments to hospital OPDs and ASCs cover only facility costs.
      Physician and other professional costs are paid separately. Meanwhile, the “facility” payment
      under the physician fee schedule is considered to be the practice expense component of the fee
      schedule, which represents the costs of operating an office-based practice.

      To determine whether variation exists between ASCs and OPDs, we compared the
      reimbursement for the facility expense for these settings for 2001. For OPDs, we used the
      Hospital Outpatient Prospective Payment rates for 2001. For ASCs, we used the facility
      payment published in the Federal Register for the ASC group in which the procedure code fell
      for 2001. We used only the base amounts without geographic adjustments for all comparisons.




     Payment Methodologies                       4                                        OEI-05-00-00340
To determine whether certain procedure codes should have been removed from the ASC list of
covered services, we used CMS’s criteria for removing procedure codes from the ASC-
covered list. The CMS’s criteria for removing ASC-approved procedures uses site-of-service
volume. For a procedure code to be deleted, the inpatient, outpatient, and ASC site of service
volumes need to be less than 46 percent of the procedure’s total volume, and the procedure
needs to be performed more than 50 percent of the time in a physician’s office. We used site-
of-service volume data from CY 1999.

After determining which procedure codes met CMS’s criteria, we determined what the
potential effect would be on Medicare reimbursement for 2001. To accomplish this, we
developed two scenarios. The first scenario assumed that all the services related to the
procedure codes identified for removal from the ASC list were performed in an OPD instead of
an ASC. In this case, we compared the Hospital Outpatient Prospective Payment rates for
2001 to the ASC rates for 2001 to determine the effect.

In the second scenario, we assumed that all the services related to the procedure codes
identified for removal from the ASC list were performed in a physician’s office instead of an
ASC. In this case, we compared the full 2001 physician’s fee schedule amount to the 2001
ASC rates.

We did not evaluate the quality of care provided in these settings nor any concerns about
access to care. Because of previous OIG work examining difference in rates between ASCs
and OPDs, we limited our comparison to these two settings and did not compare these rates to
the physician office fee schedule.

We reviewed previous OIG reports as well as reports issued by the Medicare Payment
Advisory Commission. In addition, we reviewed all applicable statutes, regulations, and
Federal Register notices.

We conducted this inspection in accordance with the Quality Standards for Inspections,
issued by the President’s Council on Integrity and Efficiency.




Payment Methodologies                      5                                        OEI-05-00-00340
                                   FINDINGS

      We compared the payment rates between ASCs and OPDs for 424 different procedure codes
      for 2001. Volume for these procedure codes represented approximately 95 percent of all
      ASC-approved services. We found that variation between ASC and OPD rates continues,
      resulting in an estimated $1.1 billion in additional Medicare program payments. Furthermore,
      failure to remove certain procedure codes from the list of ASC-approved procedures resulted
      in an estimated $8 to $14 million in additional payments.


Variation between ASC and OPD rates continues and results
in higher program payments

      Despite attempts by the Congress and CMS to bring OPD and ASC payments more in line,
      variation between these rates continues. Congress attempted to bring payments to hospitals
      more in line by changing how Medicare reimbursed hospitals for outpatient services. In
      addition to congressional action, CMS concurred with a number of OIG recommendations to
      achieve parity between ASC and OPD rates.

OPD rates exceed ASC rates two-thirds of the time

      For 66 percent (279) of the procedure codes that we examined, CMS reimbursed an OPD
      more than if the same service is provided in an ASC. For these procedure codes, the median
      difference was $282.33. The range of difference was $4.07 to $1,383.18. Four procedure
      codes differed by more than 200 percent.

      For the remaining 34 percent (145) of the procedure codes, CMS reimbursed an ASC more
      than an OPD. The median difference between ASC and OPD rates was $135.78 with a range
      of $3.18 to $410.39. For 12 procedure codes, the difference between ASC and OPD rates
      was 200 percent or more. (See Appendix B for more information on the percent differences
      between OPD and ASC rates.)

Medicare paid an estimated $1.1 billion more for services provided in settings with
the higher reimbursement

      For those procedure codes where CMS reimbursed OPDs at a higher rate than ASCs, the
      Medicare program could have saved an estimated $1 billion if the lower ASC rate had been
      used. Almost 32 percent of the estimated savings comes from just one procedure code (66984
      - cataract surgery with intraocular lens insertion). Under the hospital outpatient prospective
      payment system, CMS reimbursed hospitals $1,333.89 for procedure code 66984, while
      CMS reimbursement for the same procedure code is $949 in ASCs. The volume of services is
      almost evenly split, with hospital outpatient


     Payment Methodologies                      6                                       OEI-05-00-00340
departments providing approximately 844,000 services and ASCs providing 802,000 services.

For the 34 percent of procedure codes where Medicare paid ASCs more, an additional $100
million in estimated savings could have been realized, if CMS had used the lower outpatient
prospective rates instead of the higher ASC rates. Forty-five percent of this estimated savings
comes from one procedure code (66821 - after cataract laser surgery). An ASC received
$433 for this service, while a hospital outpatient department received $245.67. For this
procedure code, nearly twice as many services (235,085) occurred in ASCs than in hospital
outpatient departments (122,072).

To facilitate analysis of the data, we classified the 424 procedure codes using the Berenson-
Eggers Type of Service (BETOS) classification. The CMS developed the BETOS system to
analyze the growth in Medicare expenditures. An examination of the potential savings by
BETOS groupings revealed that nearly half the savings was in the eye procedure group. This
grouping of procedure codes contained approximately $466 million in additional payments, of
which cataract procedures represent $330 million. Another $233 million can be found in the
BETOS group for endoscopies. (See Table 1 and Appendix C for additional information on
savings by BETOS groupings.)




Payment Methodologies                      7                                        OEI-05-00-00340
Table 1                              Savings by BETOS Categories
 # of Procedure      BETOS       BETOS                 OPD > ASC      ASC > OPD       Potential Savings
 Codes               Category    Description


 1                   M5          Specialist            1              0                         $1,101,131

 32                  P1          Major Procedure-      20             12                       $77,317,382
                                 Other

 12                  P2          Major Procedure -     10             2                        $81,124,618
                                 Cardiovascular

 18                  P3          Major Procedure -     15             3                        $48,464,759
                                 Orthopedic

 49                  P4          Eye Procedures        41             8                       $465,907,275

 165                 P5          Ambulatory            120            45                      $205,138,190
                                 Procedures

 54                  P6          Minor Procedures      11             43                       $14,897,995

 93                  P8          Endoscopy             59             34                      $232,511,646

                                 Total                 279            145                   $1,126,462,996

Source: OIG analysis

          In addition, CMS could have reduced payments without necessarily creating equal rates. For
          example, 144 procedure codes varied by more than $300. If CMS limited the amount of
          difference to $300, they could have reduced payments by $352 million. If CMS chose $400,
          they could have realized approximately $188 million in savings.

Accuracy of OPD and ASC rates are questionable

          Not only do payment rates between OPDs and ASCs vary, but there is concern that the rates
          themselves do not reflect accurate costs for performing the procedure. A series of OIG audits
          of hospital cost reports found significant unallowable and questionable costs. Based on these
          audits, OIG raised concerns about the methodology used to determine hospital outpatient PPS
          rates, which used settled, but not audited, cost reports. The OIG believed that the original rate
          setting methodology included unallowable costs and improper payments, thereby inflating the
          rates.4




          4
        Review of the Health Care Financing Administration’s Development of Medicare’s
Prospective Payment System for Hospital Outpatient Department Services (A-14-98-00400)
      Payment Methodologies                  8                                   OEI-05-00-00340
      In addition, CMS has not rebased the ASC payment amounts using recent survey data, which
      raises questions about the accuracy of the payment rates. The law requires CMS to survey
      ASCs to determine the actual audited costs they incur. Currently, ASC payment rates are
      based on 1986 ASC survey data, which may not represent their operating costs today.

      Since 1992, the type of procedures that ASCs provide has changed. In 1992, two eye
      procedure codes represented 57 percent of the ASC services. By 1999, this dropped to 42
      percent. Over the same time period, the number of procedure codes with 1,000 or more
      services in an ASC increased from 72 procedure codes to 125 procedure codes. Resource
      intense procedures performed in ASCs in 1986 may be less resource intensive now, due to
      changes in technology, and therefore, may be less expensive to perform. A more recent ASC
      survey may provide more accurate information for procedures that are now commonly
      performed in ASCs.



Failure to remove certain procedure codes from the ASC list
of covered procedures resulted in higher program payments

      Contrary to regulations, CMS has failed to remove procedure codes from the list of ASC-
      covered procedures. Currently, CMS regulations require that the ASC list of covered
      procedures not include procedures that are commonly performed or that may be safely
      performed in physicians’ offices. To determine which procedure codes should be removed,
      CMS established a standard using utilization data. Based on our analysis of calender year 1999
      data, 72 procedure codes met CMS’s criteria for removal.

As a result, Medicare potentially paid an additional $8 to $14 million for services

      If CMS removed the 72 procedure codes that met its criteria for removal from the ASC-
      covered list, CMS could have spent approximately $8 to $14 million less for services in 2001.
      If all the services related to these 72 procedure codes provided in ASCs were instead provided
      in hospital OPDs, CMS could have saved nearly $8 million. If these same services were
      provided in physician offices, CMS could have saved almost $14 million. (See Appendix D for
      more information on procedure codes and savings.)




      Payment Methodologies                     9                                       OEI-05-00-00340
                                CONCLUSION AND
                                RECOMMENDATION


         We believe that Congress intended Medicare to be a prudent purchaser of services and only to
         pay for those costs that are necessary for the efficient delivery of needed health services. Our
         analysis of payment systems shows that reimbursement disparities result in an estimated $1.1
         billion in additional Medicare program payments. Furthermore, failure to remove certain
         procedure codes from the list of ASC-approved procedures resulted in an estimated $8 to 14
         million in additional Medicare program payments.

         We reiterate previous OIG recommendations, with which CMS concurred, that there should be
         greater parity of payments for services performed in an outpatient setting and those performed
         in ASCs. These recommendations are consistent with the Medicare Payment Advisory
         Commission’s position that, “all else being equal, Medicare should pay for ambulatory care
         based on the service, not the setting.”5 To safeguard the Medicare program from excessive
         payments, we recommend that CMS:

         •	       seek authority to set rates that are consistent across sites and reflect only the costs
                  necessary for the efficient delivery of health services,
         •        conduct and use timely ASC-survey data to reevaluate ASC-payment rates, and
         •	       remove the procedure codes that meet its criteria for removal from the ASC list of
                  covered procedures.




         5
         Report to the Congress, Context for a Changing Medicare Program, Medicare Payment Advisory
Commission, June 1998, pg. 72
        Payment Methodologies                            10                                           OEI-05-00-00340
                    AGENCY COMMENTS


We received comments from the Centers for Medicare & Medicaid Services. The CMS
neither concurred nor non-concurred with our recommendations. The complete text of CMS’s
comments can be found in Appendix E.

The CMS commented that it would be valuable if we included an explicit acknowledgment that
the three payment systems (outpatient prospective payment system, ASC fee schedule, and
physician fee schedule) arise from different sections of the statute. We recognize that different
statutory authorities mandate how CMS reimburses OPDs, ASCs, and physicians. Our
recommendation recognizes that CMS needs additional authority because the payment systems
have evolved over time from different laws enacted by Congress. We continue to urge CMS to
seek the authority to set rates that are consistent across sites and reflect only the costs
necessary for the efficient delivery of health services.

The CMS stated that they have not conducted ASC surveys in some time due to competing
priorities. They also note that the endeavor is quite difficult and poses a significant burden on
ASCs. The CMS stated that it is now considering how best to proceed. We recognize the
difficulty in developing and conducting a survey of costs in ASCs. However, we also recognize
that operating a program where 2001 Medicare reimbursement was $1.6 billion, based on data
that is more than 15 years old, does little to manage appropriately the ASC-payment system.
We urge CMS to conduct and use timely ASC-survey data to reevaluate ASC-payment rates.

In addition, CMS agrees that some procedures should be removed from the
ASC-approved procedures list. The CMS states that they expect to complete the final rule
regarding addition and deletions to the list of ASC-covered procedures. We understand that
CMS is currently planning to issue parts of the June 1998 proposed regulations dealing with
additions and deletions to the list of covered services. Our review of the draft final regulation
circulating within the Department reveals that only 6 of the 72 procedure codes that we
recommended are scheduled for deletion. Consequently, procedure codes meeting CMS’s
criteria for removal from the ASC-covered procedure list will continue to be reimbursed as
ASC-covered procedures resulting in higher program payments.




Payment Methodologies                       11                                         OEI-05-00-00340
                                             APPENDIX A




   Procedure Codes Examined with ASC and OPD Rates





Payment Methodologies    12                      OEI-05-00-00340
                                                                                   APPENDIX A

HCPCS       OPD Rate        ASC Rate     Differences        HCPCS   OPD Rate    ASC Rate       Differences
10180       $184.88            $433.00    ($248.12)         19101   $621.50         $433.00         $188.50
11042       $177.35            $433.00    ($255.65)         19120   $621.50         $495.00         $126.50

11043       $177.35            $433.00    ($255.65)         19125   $621.50         $495.00         $126.50
11044       $625.50            $433.00     $192.50          19126   $621.50         $495.00         $126.50

11404       $327.07            $323.00       $4.07          19140   $621.50         $612.00            $9.50
11406       $327.07            $433.00    ($105.93)         19160   $621.50         $495.00         $126.50
11424       $327.07            $433.00    ($105.93)         19162   $1,577.29       $966.00         $611.29

11426       $627.50            $433.00     $194.50          19180   $1,577.29       $612.00         $965.29
11444       $327.07            $323.00       $4.07          19290   $921.50         $323.00         $598.50
11446       $627.50            $433.00     $194.50          19291   $921.50         $323.00         $598.50

11604       $327.07            $433.00    ($105.93)         19318   $1,577.29       $612.00         $965.29
11606       $527.02            $433.00      $94.02          20205   $527.02         $495.00           $32.02
11624       $327.07            $433.00    ($105.93)         20206   $271.81         $323.00          ($51.19)

11626       $627.50            $433.00     $194.50          20220   $200.97         $323.00         ($122.03)
11644       $327.07            $433.00    ($105.93)         20225   $327.07         $433.00         ($105.93)
11646       $627.50            $433.00     $194.50          20650   $755.63         $495.00         $260.63

12020       $122.08            $323.00    ($200.92)         20670   $527.02         $323.00         $204.02
12021       $122.08            $323.00    ($200.92)         20680   $627.50         $495.00         $132.50

12034       $122.08            $433.00    ($310.92)         20690   $1,061.58       $433.00         $628.58
13100       $187.90            $433.00    ($245.10)         20694   $755.63         $323.00         $432.63
13101       $187.90            $495.00    ($307.10)         21550   $200.97         $323.00         ($122.03)

13120       $187.90            $433.00    ($245.10)         21555   $627.50         $433.00         $194.50
13121       $187.90            $495.00    ($307.10)         21556   $627.50         $433.00         $194.50
13131       $187.90            $433.00    ($245.10)         21800   $82.40          $323.00         ($240.60)

13132       $187.90            $495.00    ($307.10)         21920   $327.07         $323.00            $4.07
13150       $608.42            $495.00     $113.42          21930   $627.50         $433.00         $194.50
13151       $187.90            $495.00    ($307.10)         22305   $82.40          $323.00         ($240.60)

13152       $187.90            $495.00    ($307.10)         22310   $82.40          $323.00         ($240.60)
13160       $608.42            $433.00     $175.42          23120   $1,394.69       $696.00         $698.69

14000       $608.42            $433.00     $175.42          23130   $1,394.69       $696.00         $698.69
14001       $608.42            $495.00     $113.42          23410   $1,816.70       $696.00        $1,120.70
14020       $608.42            $495.00     $113.42          23412   $1,816.70       $966.00         $850.70

14021       $608.42            $495.00     $113.42          23420   $1,816.70       $966.00         $850.70
14040       $608.42            $433.00     $175.42          23500   $82.40          $323.00         ($240.60)
14041       $608.42            $495.00     $113.42          23600   $109.03         $323.00         ($213.97)

14060       $608.42            $495.00     $113.42          23620   $109.03         $323.00         ($213.97)
14061       $608.42            $495.00     $113.42          23700   $553.66         $323.00         $230.66
14300       $608.42            $612.00      ($3.58)         24075   $527.02         $433.00           $94.02

15000       $608.42            $433.00     $175.42          24076   $627.50         $433.00         $194.50
15100       $608.42            $433.00     $175.42          24105   $755.63         $495.00         $260.63
15101       $608.42            $495.00     $113.42          24500   $109.03         $323.00         ($213.97)

15120       $608.42            $433.00     $175.42          24670   $109.03         $323.00         ($213.97)
15220       $608.42            $433.00     $175.42          24685   $1,119.87       $495.00         $624.87

15240       $608.42            $495.00     $113.42          25000   $755.63         $495.00         $260.63
15260       $608.42            $433.00     $175.42          25075   $327.07         $433.00         ($105.93)
15350       $608.42            $433.00     $175.42          25111   $568.72         $495.00           $73.72

15576       $608.42            $495.00     $113.42          25115   $755.63         $612.00         $143.63

    Payment Methodologies                              13                                     OEI-05-00-00340
                                                                                   APPENDIX A

HCPCS       OPD Rate        ASC Rate     Differences        HCPCS   OPD Rate    ASC Rate       Differences
15732       $793.81            $495.00     $298.81          25310   $1,394.69       $495.00         $899.69

15734       $793.81            $495.00     $298.81          25447   $1,109.82       $696.00         $413.82
15740       $793.81            $433.00     $360.81          25605   $109.03         $495.00         ($385.97)

19100       $271.81            $323.00     ($51.19)         25611   $1,119.87       $495.00         $624.87
25620       $1,119.87          $696.00     $423.87          29822   $1,234.42       $495.00         $739.42
26055       $568.72            $433.00     $135.72          29823   $1,234.42       $495.00         $739.42

26115       $627.50            $433.00     $194.50          29826   $1,234.42       $495.00         $739.42
26116       $627.50            $433.00     $194.50          29874   $1,234.42       $495.00         $739.42
26121       $987.74            $612.00     $375.74          29875   $1,234.42       $612.00         $622.42

26123       $987.74            $612.00     $375.74          29876   $1,234.42       $612.00         $622.42
26125       $987.74            $612.00     $375.74          29877   $1,234.42       $612.00         $622.42
26145       $568.72            $495.00      $73.72          29879   $1,234.42       $495.00         $739.42

26160       $568.72            $495.00      $73.72          29880   $1,234.42       $612.00         $622.42
26418       $568.72            $612.00     ($43.28)         29881   $1,234.42       $612.00         $622.42
26531       $1,460.00          $966.00     $494.00          30115   $603.89         $433.00         $170.89

26605       $109.03            $433.00    ($323.97)         30130   $603.89         $495.00         $108.89
26860       $987.74            $495.00     $492.74          30140   $603.89         $433.00         $170.89

26951       $568.72            $433.00     $135.72          30520   $1,276.12       $612.00         $664.12
27193       $109.03            $323.00    ($213.97)         30801   $260.24         $323.00          ($62.76)
27266       $1,109.82          $433.00     $676.82          30802   $603.89         $323.00         $280.89

27425       $1,061.58          $966.00      $95.58          30903   $111.03         $323.00         ($211.97)
27520       $109.03            $323.00    ($213.97)         30905   $111.03         $323.00         ($211.97)
27530       $109.03            $323.00    ($213.97)         31233   $63.30          $433.00         ($369.70)

27570       $553.66            $323.00     $230.66          31235   $683.78         $323.00         $360.78
27750       $109.03            $323.00    ($213.97)         31237   $683.78         $433.00         $250.78
27760       $109.03            $323.00    ($213.97)         31238   $683.78         $323.00         $360.78

27780       $109.03            $323.00    ($213.97)         31240   $683.78         $433.00         $250.78
27786       $109.03            $323.00    ($213.97)         31254   $920.01         $495.00         $425.01

27792       $1,119.87          $495.00     $624.87          31255   $920.01         $696.00         $224.01
27808       $109.03            $323.00    ($213.97)         31256   $920.01         $495.00         $425.01
27814       $1,119.87          $495.00     $624.87          31267   $920.01         $495.00         $425.01

28002       $755.63            $495.00     $260.63          31276   $920.01         $495.00         $425.01
28043       $527.02            $433.00      $94.02          31287   $920.01         $495.00         $425.01
28045       $777.23            $495.00     $282.23          31288   $920.01         $495.00         $425.01

28080       $777.23            $495.00     $282.23          31525   $683.78         $323.00         $360.78
28090       $777.23            $495.00     $282.23          31535   $920.01         $433.00         $487.01
28110       $1,055.06          $495.00     $560.06          31536   $920.01         $495.00         $425.01

28112       $777.23            $495.00     $282.23          31541   $920.01         $612.00         $308.01
28113       $777.23            $495.00     $282.23          31570   $920.01         $433.00         $487.01
28119       $777.23            $612.00     $165.23          31600   $625.50         $433.00         $192.50

28122       $777.23            $495.00     $282.23          31615   $404.95         $323.00           $81.95
28285       $777.23            $495.00     $282.23          31622   $404.95         $323.00           $81.95

28288       $869.17            $495.00     $374.17          31625   $404.95         $433.00          ($28.05)
28290       $1,055.06          $433.00     $622.06          31628   $404.95         $433.00          ($28.05)
28292       $1,055.06          $433.00     $622.06          31629   $404.95         $433.00          ($28.05)

28293       $1,055.06          $495.00     $560.06          31641   $404.95         $433.00          ($28.05)


    Payment Methodologies                              14                                     OEI-05-00-00340
                                                                                  APPENDIX A

HCPCS       OPD Rate        ASC Rate     Differences        HCPCS   OPD Rate   ASC Rate       Differences
28296       $1,055.06          $495.00     $560.06          31645   $404.95        $323.00           $81.95

28308       $869.17            $433.00     $436.17          32000   $182.88        $323.00         ($140.12)
28310       $777.23            $495.00     $282.23          32002   $182.88        $433.00         ($250.12)

28315       $777.23            $612.00     $165.23          32020   $182.88        $433.00         ($250.12)
28400       $109.03            $323.00    ($213.97)         32400   $271.81        $323.00          ($51.19)
28750       $777.23            $612.00     $165.23          32405   $271.81        $323.00          ($51.19)

28810       $777.23            $433.00     $344.23          36489   $271.30        $323.00          ($51.70)
28820       $777.23            $433.00     $344.23          36491   $271.30        $323.00          ($51.70)
28825       $777.23            $433.00     $344.23          36533   $971.66        $495.00         $476.66

36534       $657.65            $433.00     $224.65          43450   $238.15        $323.00          ($84.85)
36535       $328.07            $323.00       $5.07          43453   $238.15        $323.00          ($84.85)
36800       $971.66            $495.00     $476.66          43456   $238.15        $433.00         ($194.85)

36821       $1,330.88          $495.00     $835.88          43458   $238.15        $433.00         ($194.85)
36825       $1,330.88          $612.00     $718.88          43750   $359.22        $433.00          ($73.78)
36830       $1,330.88          $612.00     $718.88          43760   $118.57        $323.00         ($204.43)

36832       $1,330.88          $612.00     $718.88          44360   $374.29        $433.00          ($58.71)
36860       $971.66            $433.00     $538.66          44361   $374.29        $433.00          ($58.71)

36861       $971.66            $495.00     $476.66          44388   $400.93        $323.00           $77.93
37609       $327.07            $433.00    ($105.93)         45170   $888.26        $433.00         $455.26
37720       $1,015.37          $495.00     $520.37          45305   $142.18        $323.00         ($180.82)

37785       $743.06            $495.00     $248.06          45331   $142.18        $323.00         ($180.82)
38500       $697.85            $433.00     $264.85          45333   $314.51        $323.00           ($8.49)
38505       $271.81            $323.00     ($51.19)         45334   $314.51        $323.00           ($8.49)

38510       $697.85            $433.00     $264.85          45338   $314.51        $323.00           ($8.49)
38525       $697.85            $433.00     $264.85          45339   $314.51        $323.00           ($8.49)
38740       $982.71            $433.00     $549.71          45378   $400.93        $433.00          ($32.07)

38745       $982.71            $612.00     $370.71          45380   $400.93        $433.00          ($32.07)
40814       $603.89            $433.00     $170.89          45382   $400.93        $433.00          ($32.07)

41112       $603.89            $433.00     $170.89          45383   $400.93        $433.00          ($32.07)
42104       $603.89            $433.00     $170.89          45384   $400.93        $433.00          ($32.07)
42145       $625.50            $696.00     ($70.50)         45385   $400.93        $433.00          ($32.07)

42440       $1,276.12          $495.00     $781.12          46040   $117.57        $495.00         ($377.43)
42826       $935.49            $612.00     $323.49          46050   $117.57        $323.00         ($205.43)
43200       $359.22            $323.00      $36.22          46080   $646.09        $495.00         $151.09

43202       $359.22            $323.00      $36.22          46200   $888.26        $433.00         $455.26
43215       $359.22            $323.00      $36.22          46255   $888.26        $495.00         $393.26
43220       $359.22            $323.00      $36.22          46260   $888.26        $495.00         $393.26

43226       $359.22            $323.00      $36.22          46270   $888.26        $495.00         $393.26
43234       $359.22            $323.00      $36.22          47000   $271.81        $323.00          ($51.19)
43235       $359.22            $323.00      $36.22          47525   $253.21        $323.00          ($69.79)

43239       $359.22            $433.00     ($73.78)         48102   $271.81        $323.00          ($51.19)
43241       $359.22            $433.00     ($73.78)         49080   $182.88        $433.00         ($250.12)

43243       $359.22            $433.00     ($73.78)         49081   $182.88        $433.00         ($250.12)
43245       $359.22            $433.00     ($73.78)         49180   $271.81        $323.00          ($51.19)
43246       $359.22            $433.00     ($73.78)         49420   $985.73        $323.00         $662.73

43247       $359.22            $433.00     ($73.78)         49421   $985.73        $323.00         $662.73


    Payment Methodologies                              15                                    OEI-05-00-00340
                                                                                   APPENDIX A

HCPCS       OPD Rate        ASC Rate     Differences        HCPCS   OPD Rate    ASC Rate       Differences
43248       $359.22            $433.00     ($73.78)         49505   $1,126.91       $612.00         $514.91

43249       $359.22            $433.00     ($73.78)         49520   $1,126.91       $966.00         $160.91
43250       $359.22            $433.00     ($73.78)         49525   $1,126.91       $612.00         $514.91

43251       $359.22            $433.00     ($73.78)         49550   $1,126.91       $696.00         $430.91
43255       $359.22            $433.00     ($73.78)         49560   $1,126.91       $612.00         $514.91
43258       $359.22            $495.00    ($135.78)         49565   $1,126.91       $612.00         $514.91

43259       $359.22            $495.00    ($135.78)         49585   $1,126.91       $612.00         $514.91
43260       $529.04            $433.00      $96.04          50200   $271.81         $323.00          ($51.19)
43261       $529.04            $433.00      $96.04          50390   $271.81         $323.00          ($51.19)

43262       $529.04            $433.00      $96.04          50392   $272.80         $323.00          ($50.20)
43264       $529.04            $433.00      $96.04          50393   $272.80         $323.00          ($50.20)
43268       $529.04            $433.00      $96.04          50398   $253.21         $323.00          ($69.79)

43269       $529.04            $433.00      $96.04          51010   $195.43         $323.00         ($127.57)
43271       $529.04            $433.00      $96.04          51040   $878.72         $612.00         $266.72
51710       $118.57            $323.00    ($204.43)         64420   $166.80         $323.00         ($156.20)

51725       $195.43            $323.00    ($127.57)         64421   $166.80         $323.00         ($156.20)
51726       $195.43            $323.00    ($127.57)         64510   $166.80         $323.00         ($156.20)

51772       $195.43            $323.00    ($127.57)         64520   $166.80         $323.00         ($156.20)
51785       $109.04            $323.00    ($213.96)         64620   $166.80         $323.00         ($156.20)
52000       $272.80            $323.00     ($50.20)         64622   $166.80         $323.00         ($156.20)

52005       $549.63            $433.00     $116.63          64623   $166.80         $323.00         ($156.20)
52204       $549.63            $433.00     $116.63          64714   $701.36         $433.00         $268.36
52214       $549.63            $433.00     $116.63          64718   $701.36         $433.00         $268.36

52224       $549.63            $433.00     $116.63          64719   $701.36         $433.00         $268.36
52234       $878.72            $433.00     $445.72          64721   $701.36         $433.00         $268.36
52235       $878.72            $495.00     $383.72          64722   $701.36         $323.00         $378.36

52240       $1,455.98          $495.00     $960.98          64727   $701.36         $323.00         $378.36
52260       $549.63            $433.00     $116.63          65400   $303.45         $323.00          ($19.55)

52275       $549.63            $433.00     $116.63          65420   $692.82         $433.00         $259.82
52276       $549.63            $495.00      $54.63          65426   $692.82         $696.00           ($3.18)
52281       $549.63            $433.00     $116.63          65730   $1,651.92       $966.00         $685.92

52285       $549.63            $433.00     $116.63          65755   $1,651.92       $966.00         $685.92
52310       $549.63            $433.00     $116.63          65805   $692.82         $323.00         $369.82
52315       $549.63            $433.00     $116.63          65865   $692.82         $323.00         $369.82

52317       $878.72            $323.00     $555.72          65875   $692.82         $612.00           $80.82
52318       $878.72            $433.00     $445.72          66170   $1,036.97       $612.00         $424.97
52332       $878.72            $433.00     $445.72          66172   $1,036.97       $612.00         $424.97

52450       $878.72            $495.00     $383.72          66180   $1,036.97       $696.00         $340.97
52500       $878.72            $495.00     $383.72          66250   $692.82         $433.00         $259.82
52601       $1,455.98          $612.00     $843.98          66710   $303.45         $433.00         ($129.55)

52640       $878.72            $433.00     $445.72          66821   $245.67         $433.00         ($187.33)
54161       $684.27            $433.00     $251.27          66850   $1,333.89       $966.00         $367.89

54520       $917.39            $495.00     $422.39          66852   $1,333.89       $612.00         $721.89
54840       $917.39            $612.00     $305.39          66984   $1,333.89       $949.00         $384.89
55040       $1,126.91          $495.00     $631.91          66985   $1,333.89       $806.00         $527.89

55700       $248.20            $433.00    ($184.80)         66986   $1,333.89       $806.00         $527.89


    Payment Methodologies                              16                                     OEI-05-00-00340
                                                                                     APPENDIX A

  HCPCS       OPD Rate        ASC Rate     Differences        HCPCS   OPD Rate    ASC Rate       Differences
  56405       $119.57            $433.00    ($313.43)         67005   $1,706.18       $612.00        $1,094.18

  56605       $200.97            $323.00    ($122.03)         67010   $1,706.18       $612.00        $1,094.18
  57240       $938.50            $696.00     $242.50          67015   $1,706.18       $323.00        $1,383.18

  57410       $814.41            $433.00     $381.41          67031   $245.67         $433.00         ($187.33)
  57520       $814.41            $433.00     $381.41          67036   $1,706.18       $612.00        $1,094.18
  57522       $938.50            $433.00     $505.50          67038   $1,706.18       $696.00        $1,010.18

  58120       $726.99            $433.00     $293.99          67039   $1,706.18       $966.00         $740.18
  60220       $982.71            $433.00     $549.71          67040   $1,706.18       $966.00         $740.18
  61055       $182.88            $323.00    ($140.12)         67107   $1,706.18       $696.00        $1,010.18

  61070       $182.88            $323.00    ($140.12)         67108   $1,706.18       $966.00         $740.18
  62270       $150.72            $323.00    ($172.28)         67141   $147.71         $433.00         ($285.29)
  62273       $182.88            $323.00    ($140.12)         67255   $1,706.18       $495.00        $1,211.18

  62282       $182.88            $323.00    ($140.12)         67311   $903.83         $495.00         $408.83
  62350       $354.20            $433.00     ($78.80)         67312   $903.83         $612.00         $291.83
  62362       $561.19            $433.00     $128.19          67314   $903.83         $612.00         $291.83

  62367       $22.61             $433.00    ($410.39)         67880   $303.45         $495.00         ($191.55)
  62368       $22.61             $433.00    ($410.39)         67903   $676.74         $612.00           $64.74

  63650       $898.80            $433.00     $465.80          67904   $676.74         $612.00           $64.74
  64415       $166.80            $323.00    ($156.20)         67908   $676.74         $612.00           $64.74
  67911       $676.74            $495.00     $181.74

  67916       $676.74            $612.00      $64.74
  67917       $676.74            $612.00      $64.74
  67921       $676.74            $495.00     $181.74

  67923       $676.74            $612.00      $64.74
  67924       $676.74            $612.00      $64.74
  67950       $676.74            $433.00     $243.74

  67961       $676.74            $495.00     $181.74
  67966       $676.74            $495.00     $181.74

  68320       $676.74            $612.00      $64.74
  68720       $1,190.70          $612.00     $578.70
  68810       $132.64            $323.00    ($190.36)

  69110       $327.07            $323.00       $4.07
  69145       $327.07            $433.00    ($105.93)
  69436       $603.89            $495.00     $108.89

  69631       $1,276.12          $696.00     $580.12

Source: OIG Analysis




      Payment Methodologies                              17                                     OEI-05-00-00340
                                                                   APPENDIX B


               Number of Codes by Percent Differences



                             OPD rates greater than ASC rates


                   Number of Codes            Percent Difference
                   4                          >200%
                   69                         100-199%
                   88                         50-99%
                   118                        1-49%
                    Source: OIG Analysis



                             ASC rates greater than OPD rates


                   Number of Codes            Percent Difference
                   12                         >200%
                   41                         100-199%
                   26                         50-99%
                   66                         1-49%
                    Source: OIG Analysis




Payment Methodologies                      18                          OEI-05-00-00340
                                                                             APPENDIX C



                              Analysis by BETOS Classification



# of               BETOS        BETOS Description         # OPD >   #ASC >   Potential Savings
Procedure          Category                               ASC       OPD
Codes
1                  M5D          Specialist                1         0        $1,101,131
                                Subtotal                  1         0        $1,101,131
3                  P1A          Major Procedure -         3         0        $10,657,129
                                Breast
2                  P1D          Major Procedure -         2         0        $13,050,648
                                TURP
27                 P1G          Major Procedure -         15        12       $53,609,605
                                Other
                                Subtotal                  20        12       $77,317,382
12                 P2F          Major Procedure -         10        2        $81,124,618
                                Cardiovascular
                                Subtotal                  10        2        $81,124,618
18                 P3D          Major Procedure -         15        3        $48,464,759
                                Orthopedic
                                Subtotal                  15        3        $48,464,759
2                  P4A          Eye Procedure             2         0        $5,865,302
5                  P4B          Eye Procedure -           5         0        $330,368,672
                                Cataract
3                  P4C          Eye Procedure -           2         1        $12,610,047
                                Retinal Detachment
39                 P4E          Eye Procedure - Other     32        7        $117,063,254
                                Subtotal                  41        8        $465,907,275
37                 P5A          Ambulatory                25        12       $18,888,083
                                Procedures - Skin
51                 P5B          Ambulatory                47        4        $56,844,714
                                Procedures -
                                Musculoskeletal
4                  P5C          Ambulatory                4         0        $39,355,713
                                Procedures - Inguinal
                                Hernia Repair
73                 P5E          Ambulatory                44        29       $90,049,680
                                Procedures - Other
                                Subtotal                  120       45       $205,138,190
12                 P6A          Minor Procedures -        4         8        $4,318,404
                                Skin
22                 P6B          Minor Procedures -        4         18       $2,061,819
                                Musculoskeletal

     Payment Methodologies                           19                              OEI-05-00-00340
                                                                           APPENDIX C

# of               BETOS      BETOS Description         # OPD >   #ASC >   Potential Savings
Procedure          Category                             ASC       OPD
Codes
20                 P6C        Minor Procedures -        3         17       $8,517,772
                              Other
                              Subtotal                  11        43       $14,897,995
10                 P8A        Endoscopy -               10        0        $96,335,979
                              Arthroscopy
26                 P8B        Endoscopy - Upper         13        13       $28,370,205
                              Gastrointestinal
6                  P8C        Endoscopy -               0         6        $928,643
                              Sigmoidscopy
7                  P8D        Endoscopy -               1         6        $15,502,443
                              Colonoscopy
18                 P8E        Endoscopy -               17        1        $64,500,588
                              Cystoscopy
7                  P8F        Endoscopy -               3         4        $1,977,433
                              Brochoscopy
5                  P8H        Endoscopy -               5         0        $8,060,606
                              Laryngoscopy
14                 P8I        Endoscopy - Other         10        4        $16,835,749
                              Subtotal                  59        34       $232,511,646
                              Total                     279       145      $1,126,462,945

     Source: OIG Analysis




     Payment Methodologies                         20                              OEI-05-00-00340
                                                APPENDIX D




  Procedure Codes Identified for Removal from ASC List





Payment Methodologies      21                       OEI-05-00-00340
                                                                                                    APPENDIX D

HCPCS        OPD Rate       ASC Rate     Fee           Est. ASC                 Est. OPD                 Phys. Office
                                         Schedule      Reimbusement             Reimbursement            Reimbursement
23620        $109.03           $323.00       $280.81                    $0.00                    $0.00              $0.00
24670        $109.03           $323.00       $255.95                    $0.00                    $0.00              $0.00
27786        $109.03           $323.00       $299.94                    $0.00                    $0.00              $0.00
28400        $109.03           $323.00       $281.20                    $0.00                    $0.00              $0.00
62367        $22.61            $433.00        $31.37           $155,880.00                $8,139.60            $11,293.79
22305        $82.40            $323.00       $199.71                  $323.00                   $82.40            $199.71
27780        $109.03           $323.00       $284.64                  $323.00               $109.03               $284.64
27760        $109.03           $323.00       $308.74                  $323.00               $109.03               $308.74
27520        $109.03           $323.00       $309.13                  $323.00               $109.03               $309.13
27808        $109.03           $323.00       $330.55                  $646.00               $218.06               $661.10
23600        $109.03           $323.00       $312.57                  $969.00               $327.09               $937.71
56405        $119.57           $433.00       $133.90             $4,763.00                $1,315.27             $1,472.94
31235        $683.78           $323.00       $213.10             $3,553.00                $7,521.58             $2,344.07
12021        $122.08           $323.00       $144.23             $6,783.00                $2,563.68             $3,028.89
46050        $117.57           $323.00       $153.03             $6,783.00                $2,468.97             $3,213.68
45305        $142.18           $323.00        $71.93            $17,442.00                $7,677.72             $3,883.96
31233        $63.30            $433.00       $191.29             $9,959.00                $1,455.90             $4,399.68
21920        $327.07           $323.00       $159.15            $11,628.00               $11,774.52             $5,729.53
31570        $920.01           $433.00       $318.31             $9,959.00               $21,160.23             $7,321.07
38505        $271.81           $323.00       $144.23            $17,119.00               $14,405.93             $7,644.35
42104        $603.89           $433.00       $153.80            $28,578.00               $39,856.74            $10,150.64
30801        $260.24           $323.00       $120.13            $33,269.00               $26,804.72            $12,373.43
65805        $692.82           $323.00       $158.39            $31,977.00               $68,589.18            $15,680.46
51710        $118.57           $323.00       $198.56            $27,778.00               $10,197.02            $17,076.12
56605        $200.97           $323.00       $102.91            $55,556.00               $34,566.84            $17,701.26
31238        $683.78           $323.00       $273.55            $33,915.00               $71,796.90            $28,722.27
40814        $603.89           $433.00       $290.38            $43,300.00               $60,389.00            $29,037.90
19100        $271.81           $323.00       $154.56            $74,613.00               $62,788.11            $35,703.99
69145        $327.07           $433.00       $226.87            $71,012.00               $53,639.48            $37,206.77
30802        $603.89           $323.00       $179.43            $72,675.00              $135,875.25            $40,371.86
41112        $603.89           $433.00       $236.82            $82,703.00              $115,342.99            $45,232.17
68810        $132.64           $323.00       $313.72            $53,941.00               $22,150.88            $52,390.64
13100        $187.90           $433.00       $237.20            $99,590.00               $43,217.00            $54,556.05
64420        $166.80           $323.00       $125.10           $143,089.00               $73,892.40            $55,421.07
31525        $683.78           $323.00       $210.80            $85,918.00              $181,885.48            $56,073.37
11446        $627.50           $433.00       $323.28            $93,961.00              $136,167.50            $70,151.97
13120        $187.90           $433.00       $250.21           $127,302.00               $55,242.60            $73,561.14
13150        $608.42           $495.00       $325.58           $133,650.00              $164,273.40            $87,905.64
11624        $327.07           $433.00       $265.51           $182,726.00              $138,023.54           $112,045.73
31237        $683.78           $433.00       $244.09           $202,644.00              $320,009.04           $114,232.57
67141        $147.71           $433.00       $484.73           $104,786.00               $35,745.82           $117,304.69
51725        $195.43           $323.00       $226.11           $178,296.00              $107,877.36           $124,810.16
11424        $327.07           $433.00       $211.57           $285,347.00              $215,539.13           $139,422.85
20670        $527.02           $323.00       $241.03           $190,570.00              $310,941.80           $142,205.36
11604        $327.07           $433.00       $221.13           $290,543.00              $219,463.97           $148,379.45
11444        $327.07           $323.00       $263.98           $197,353.00              $199,839.77           $161,292.32
67031        $245.67           $433.00       $299.56           $287,945.00              $163,370.55           $199,208.01
62368        $22.61            $433.00        $42.08          $2,105,246.00             $109,929.82           $204,611.97
15740        $793.81           $433.00       $781.61           $115,611.00              $211,947.27           $208,690.67
11404        $327.07           $323.00       $189.00           $366,282.00              $370,897.38           $214,320.35
13101        $187.90           $495.00       $285.02           $456,885.00              $173,431.70           $263,076.09
51772        $195.43           $323.00       $200.86           $446,709.00              $270,279.69           $277,782.50

    Payment Methodologies                                22                                                  OEI-05-00-00340
                                                                                                  APPENDIX D

HCPCS        OPD Rate       ASC Rate     Fee             Est. ASC                Est. OPD               Phys. Office
                                         Schedule        Reimbusement            Reimbursement          Reimbursement

13131        $187.90           $433.00        $283.11             $574,591.00            $249,343.30         $375,686.89
13121        $187.90           $495.00        $314.10             $595,980.00            $226,231.60         $378,175.20
13151        $187.90           $495.00        $355.42             $550,440.00            $208,944.80         $395,224.54
14000        $608.42           $433.00        $493.15             $355,060.00            $498,904.40         $404,380.47
11644        $327.07           $433.00        $336.29             $547,745.00            $413,743.55         $425,405.20
14021        $608.42           $495.00        $746.80             $297,495.00            $365,660.42         $448,825.67
13152        $187.90           $495.00        $479.76             $546,975.00            $207,629.50         $530,131.01
67921        $676.74           $495.00        $444.18             $643,995.00            $880,438.74         $577,873.68
14020        $608.42           $495.00        $554.74             $820,215.00          $1,008,151.94         $919,208.24
14061        $608.42           $495.00        $925.85             $508,860.00            $625,455.76         $951,769.71
14041        $608.42           $495.00        $840.15             $654,390.00            $804,331.24        $1,110,675.49
13132        $187.90           $495.00        $419.69            $1,848,825.00           $701,806.50        $1,567,547.22
51726        $195.43           $323.00        $205.45            $2,660,874.00         $1,609,952.34        $1,692,464.12
52281        $549.63           $433.00        $239.88            $3,458,371.00         $4,389,894.81        $1,915,907.88
55700        $248.20           $433.00        $184.40            $7,684,884.00         $4,405,053.60        $3,272,802.94
14040        $608.42           $433.00        $632.02            $3,126,260.00         $4,392,792.40        $4,563,211.92
14060        $608.42           $495.00        $682.52            $4,511,925.00         $5,545,748.30        $6,221,210.85
52000        $272.80           $323.00        $185.55           $14,508,191.00        $12,253,357.60        $8,334,429.53
26605        $109.03           $433.00        $313.72                $4,763.00             $1,199.33           $3,450.88
52285        $549.63           $433.00        $361.16             $238,583.00            $302,846.13         $198,997.21
                                  Total Expenditures            $51,088,968.00         $43,374,896.63     $37,507,111.11

                                         Total Savings                                 $7,714,071.37      $13,581,856.90



    Source: OIG Analysis




    Payment Methodologies                                  23                                               OEI-05-00-00340
                                           APPENDIX E



                        Agency Comments





Payment Methodologies          24              OEI-05-00-00340
                             APPENDIX E




Payment Methodologies   25       OEI-05-00-00340
                             APPENDIX E




Payment Methodologies   26       OEI-05-00-00340
                          ACKNOWLEDGMENTS


This report was prepared under the direction of William C. Moran, Regional Inspector General for
Evaluation and Inspections in Chicago, Brian T. Pattison in Kansas City, and Natalie Coen, Deputy
Regional Inspector General. Other principal Office of Evaluation and Inspections staff who contributed
include:

Thomas F. Komaniecki, Project Leader               Linda Frisch, Program Specialist
Michael Barrett, Lead Analyst                      Linda Paddock, Program Analyst




                           For information or copies of this report, please contact 

                                     the Office of Inspector General’s

                                  Public Affairs office at (202) 619-1343. 


             Reports are also available on the World Wide Web at our home page address:


                                          http://www.oig.hhs.gov/

       Payment Methodologies                          27                                  OEI-05-00-00340
